        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
The Department of Energy's
American Recovery and
Reinvestment Act Energy Efficiency
and Conservation Block Grant
Program – Efficiency Maine Trust




OAS-RA-13-04                     November 2012
                                 Department of Energy
                                    Washington, DC 20585

                                       November 8, 2012


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
               RENEWABLE ENERGY


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Examination Report on "The Department of
                         Energy's American Recovery and Reinvestment Act of 2009 Energy
                         Efficiency and Conservation Block Grant Program − Efficiency Maine
                         Trust"

INTRODUCTION AND OBJECTIVE

The attached report presents the results of an examination of the Efficiency Maine Trust's (Trust)
implementation of the American Recovery and Reinvestment Act of 2009 Energy Efficiency and
Conservation Block Grant (EECBG) Program. The Office of Inspector General (OIG)
contracted with an independent certified public accounting firm, Otis and Associates, PC, to
express an opinion on the compliance with Federal and State laws, regulations and program
guidelines applicable to the EECBG Program. The Trust is responsible for operating the State of
Maine's energy efficiency and alternative energy programs, and for administering the State of
Maine's EECBG funding.

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was enacted to promote
economic prosperity through job creation and encourage investment in the Nation's energy
future. As part of the Recovery Act, the EECBG Program received about $3.2 billion to assist in
implementing strategies to reduce fossil fuel emissions, decrease total energy use of local
governments, improve energy efficiency and create jobs. The Trust received about $9.6 million
that was allocated as block grants to units of local government and competitive grants that
support vital energy efficiency projects.

OBSERVATIONS AND CONCLUSIONS

Otis and Associates, PC, expressed the opinion that except for the weakness described in its
report, the Trust complied in all material respects with the requirements and guidelines relative
to the EECBG Program for the period November 13, 2009 through December 31, 2011.
However, the examination found that the Trust lacked adequate records to support grant related
expenditures by subgrantees. As a result, Otis and Associates, PC, questioned about $560,000 in
costs associated with the expenditures identified in the review.
                                                 2


The report makes recommendations to the Trust to improve its administration of its EECBG
funds. In response to the report, officials stated the Trust plans to work with the Department of
Energy (Department) to resolve the amounts questioned during the audit. Officials also indicated
they will continue to support the municipalities' efforts to provide the documentation needed to
complete the files. Otis and Associates, PC, considered the Trust's response to be adequate.

RECOMMENDATIONS

We recommend that the Program Director, Weatherization and Intergovernmental Programs,
Office of Energy Efficiency and Renewable Energy:

    1. Ensure that appropriate action is taken by the Trust to improve the administration of
       Recovery Act EECBG funds.

We also recommend that the Contracting Officer for the Trust's EECBG Grant:

    2. Resolve identified questioned costs.

DEPARTMENT COMMENTS AND AUDITOR RESPONSE

Department officials concurred with the recommendations outlined in this memorandum.
Department officials stated they are working with the Trust to verify that all paperwork from the
sub-grantees identified is complete and made additional training and best practices available to
the Trust. Further, officials stated they will work with the Trust to ensure the collection of all
documentation necessary to verify expenditures questioned during the audit and will verify steps
the Trust has taken to institute procedures to audit a sampling of subrecipient files for proper
documentation related to both invoices and proof of payment.

The Trust officials stated they plan to work with the Department to resolve the questioned
amounts and indicated they will continue to support the municipalities' efforts to provide the
documentation needed to complete the files.

The comments provided by the Department and the Trust were responsive to the
recommendations.

EXAMINATION-LEVEL ATTESTATION

Otis and Associates, PC, conducted its examination in accordance with attestation standards
established by the American Institute of Certified Public Accountants as well as those additional
standards contained in Government Auditing Standards, issued by the Comptroller General of the
United States. The examination-level procedures included gaining an understanding of the
Trust's policies and procedures and reviewing applicable EECBG Program documentation. The
procedures also included an analysis of subgrantees' project costs.

The OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances in which Otis and Associates, PC, did not
comply, in all material respects, with the attestation requirements. Otis and Associates, PC, is
responsible for the attached report and the conclusions expressed in the report.
                                        3


Attachment

cc: Deputy Secretary
    Acting Under Secretary for Energy
    Chief of Staff
                                                       Attachment 1




  Report on Examination Level Attestation Engagement

                          Of

                 Efficiency Maine Trust
    American Recovery and Reinvestment Act of 2009
Energy Efficiency and Conservation Block Grant Program



     Performed for the U.S. Department of Energy,
             Office of Inspector General

                        Under

           Contract Number: DE-IG0000018
            Work Order Number: 2011-04

                          By


                Otis and Associates, PC


                  November 2, 2012
                                                                                                      Attachment 1 (continued)
                                                     Table of Contents

Section                                                                                                                     Page

I.     Independent Accountants' Report ............................................................................1

II.    Background. .............................................................................................................2

III.   Classification of Findings ........................................................................................4

IV.    Material Weaknesses ..............................................................................................5

V.     Grantee's Response (Full Text) ................................................................................7

VI.    Department's Response ............................................................................................9
                                                                                     Attachment 1 (continued)



____________________      ________________________________________________________________________________________

                            INDEPENDENT ACCOUNTANTS' REPORT


To: Inspector General
    U.S. Department of Energy

We have examined Efficiency Maine Trust's compliance with Federal and State laws and
regulations, and Program guidelines applicable to the Energy Efficiency and Conservation Block
Grant Program funded by the American Recovery and Reinvestment Act of 2009. Efficiency
Maine Trust is responsible for operating the State of Maine's Energy Efficiency and
Conservation Block Grant Program in compliance with these laws and regulations, and Program
guidelines. Our responsibility is to express an opinion based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants, and the U.S. Government Accountability
Office; and, accordingly, included examining, on a test basis, evidence supporting management's
compliance with relevant American Recovery and Reinvestment Act of 2009 requirements for
the Energy Efficiency and Conservation Block Grant Program; Federal and State laws and
regulations; Program guidelines; and performing such other procedures as we considered
necessary in the circumstances. We believe that our examination provides a reasonable basis for
our opinion.

Because of the inherent limitations in any internal control structure or financial management
system, noncompliance due to error or fraud may occur and not be detected. Also, projections of
any evaluation of compliance to future periods are subject to the risk that the internal control
structure or financial management system may become inadequate because of changes in
conditions, or that the degree of compliance with the policies and procedures may deteriorate.

In our opinion, except for the weakness described in Section IV of this report, Efficiency Maine
Trust complied, in all material respects, with the aforementioned requirements and guidelines
relative to the Energy Efficiency and Conservation Block Grant Program funded by the
American Recovery and Reinvestment Act of 2009 for the period November 13, 2009 through
December 31, 2011.



Otis and Associates, PC
Takoma Park, MD

February 24, 2012
__________________________________________________     __________________________________________________________




                                                                                                                     1
                                                                         Attachment 1 (continued)

                             SECTION II: BACKGROUND
The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into law on
February 17, 2009, and authorized funding to various economic sectors and U.S. Federal
Departments. The Energy Efficiency and Conservation Block Grant Program (Program)
received about $3.2 billion in Recovery Act funding, under the U.S. Department of Energy
(Department), to assist in implementing strategies to:

     •   Reduce fossil fuel emissions in an environmentally sustainable manner that maximizes
         benefits to local and regional communities;

     •   Reduce total energy use of local governments;

     •   Improve energy efficiency in the transportation, building and other sectors; and,

     •   Create and retain jobs.

The Department's Office of Inspector General (OIG), contracted with Otis and Associates, PC, to
perform an Examination Level Attestation engagement on the State of Maine's award through the
Program.

The State of Maine established the Efficiency Maine Trust (Trust), in July 2010, by state statute,
to take over responsibility for all non-transportation related energy efficiency programs. The
Trust is an independent agency of the State that is responsible for guiding and administering
energy efficiency and alternative energy programs, and for administering the State's Energy
Efficiency and Conservation Block Grant funding.

The Trust received approximately $9.6 million in Recovery Act funds from the Department.
Over $250,000 was set aside for administrative costs and the remaining funding was allocated
among two different programs:

     •   Block Grants to Units of Local Government: This program was allocated
         approximately $6.3 million to fund municipalities and counties in the State by
         providing financial support towards energy efficiency measures on public property.

     •   Large Project Impact Fund Competitive Grants: This program was allocated $3
         million to provide financial support for vital energy efficiency projects that will have a
         certain and immediate impact on jobs and energy savings in the State.

The two program areas have approximately 128 sub-grantees. The following table shows the
number of projects, award amounts and expenditure amounts by program area as of
December 31, 2011.




                                                                                                      2
                                                            Attachment 1 (continued)
PROGRAM GRANT AWARD AND EXPENDITURES AS OF DECEMBER 31, 2011

                                                        Total     % of Award
                            Number                  Expended as Expended as of
                             of Sub-                of December   December 31,
      Program Area          grantees   Total Award    31, 2011        2011
Block Grants to Units of       126       $6,330,627    $3,996,862     63%
Local Government
Large Project Impact Fund      2         $3,000,000   $1,800,000       60%
Competitive Grants
Administrative Costs                     $ 262,873    $ 168,972        64%
Total Program Awards          128        $9,593,500   $5,965,834       62%


SUMMARY OF THE DEPARTMENT'S AWARD TO EFFICIENCY MAINE TRUST

Total Program Awards                    $ 9,330,627
Administrative Costs                    $ 262,873
Total                                   $ 9,593,500




                                                                                  3
                                                                         Attachment 1 (continued)
                     SECTION III: CLASSIFICATION OF FINDINGS


DEFINITIONS

The finding in this report is categorized as a Material Weakness, for the purposes of this
examination:

Material Weakness

A material weakness is a significant deficiency, or a combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the subject matter will
not be prevented or detected.




                                                                                                  4
                                                                         Attachment 1 (continued)
                         SECTION IV: MATERIAL WEAKNESSES

Finding 1:      Lack of adequate records to support grant related expenditures by
                Sub-grantees − Material Weakness

Condition

During our review of grant related expenditures, we noted that expenditures claimed by 9 of the
56 sub-grantees in our sample were not supported with adequate documentation. Specifically,
during our site visit with the Trust, we sampled expenditures totaling approximately $3.3 million
and found the recipient files lacked supporting documentation such as invoices, receipts, check
stubs, or copies of checks issued to vendors for sub-grantees' expenses totaling about $560,000.
Although the Trust provided most of the expenditure information requested, the documentation,
as of the close of our examination, was not adequate to support costs claimed for items such as
equipment and contracted services totaling about $560,000.

According to 10 CFR 600.220, grantees and sub-grantees must maintain records which
adequately identify the source and application of funds. Specifically, these records must contain
information pertaining to grant or sub-grant awards, authorizations and expenditures. Further,
the regulation states that records must be supported with source documentation such as cancelled
checks, paid bills and award documents.

Cause

The lack of adequate support occurred because the Trust had not enforced the provisions in the
award agreement that required its sub-grantees to retain and provide documentation supporting
expenditures. Specifically, the Trust's agreement stated that sub-grantees shall maintain records
and provide copies of backup documentation at the request of the Trust or the Department.

Effect

As a result of the condition noted above, there is an increased risk that the expenditures may not
comply with the terms and conditions of the grant and may be unallowable. Because the Trust
could not provide documentation supporting about $560,000 in expenditures, we consider these
amounts unsupported and therefore, we question their allowability.

Recommendations

We recommend that the Trust:
   •     Enforce the requirements that sub-grantees must retain and provide documentation
         supporting their expenditures; and,
   •     Work with the Department to resolve the amounts questioned during our review totaling
         $560,000 for unsupported claimed costs.




                                                                                                     5
                                                                         Attachment 1 (continued)
Management Comments and Auditors' Analysis:

Trust officials plan to work with the Department to resolve the amounts questioned during the
audit. Officials also indicated they will continue to support the municipalities in their efforts to
provide the documentation needed to complete the files.

We consider the Trust's response to be adequate.




                                                                                                  6
                                    Attachment 1 (continued)
SECTION V: GRANTEE'S RESPONSE (FULL TEXT)




                                                          7
Attachment 1 (continued)




                      8
Attachment 2




          9
Attachment 2 (continued)




                     10
                                                                 IG Report No. OAS-RA-13-04

                               CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in
       understanding this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message more clear to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report which would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we
       have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
